Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
Learn About
Us
Meet
OIG Senior Staff
Report
Fraud
Apply
for a Job
Visit
our Library
FAQs
Contact
Us
Fugitive
Felon Program
Links
of Interest
Site
Map
Español
OIG Home
Audit
Report - A-09-96-62003
Office of
Audit
Review of the County of Los Angeles Performance
as Representative Payee for Title II and Title XVI Children in
Foster Care - A-09-96-62003 - 7/9/97
This report is in response to a request from the Social Security
Administration (SSA) that we review operations of the County of Los
Angeles (County) Department of Children and Family Services
(DCFS). The primary objective of this audit was to determine whether
DCFS has established adequate procedures to perform as a representative
payee for children in its care who receive Old-Age, Survivors and
Disability Insurance (title II) and Supplemental Security Income
(SSI) benefits (title XVI). SSA also requested that we evaluate the
adequacy of SSAs instructions to DCFS.
DCFS has made organizational and procedural changes to improve its
ability to identify and report events in a timely manner which affect
childrens title II and title XVI status. We have concluded
that SSA can rely on DCFS to function as the representative payee.
Concerning the adequacy of SSAs procedural instructions to
DCFS, we concluded that the guidance was sufficient. However, DCFS
raised technical issues to which SSA was not always able to provide
timely guidance.
During the audit, we identified an issue involving DCFS policies
to reimburse foster care parents at increased rates for children
receiving title XVI. Although the issue was resolved for DCFS, we
are recommending that SSA issue procedural instructions for institutional
representative payees. The procedure would limit the amount paid
for the care of children receiving title XVI benefits while in foster
care programs consistent with the amount paid for other children
in foster care.
Back to top
BACKGROUND
In a memorandum from the Deputy Commissioner for Programs, Policy,
Evaluation and Communications, dated April 26, 1996, SSA requested
that we review the representative payee activities of DCFS. In particular,
SSA asked us to determine if:
changes made by DCFS are sufficient to permit SSA to continue
relying on DCFS as a payee;
deficiencies in DCFS recordkeeping as representative
payee for title II and title XVI beneficiaries were identified;
and
SSAs instructions to DCFS were adequate.
DCFS acts as the representative payee for children who receive Social
Security benefits and are in the Countys foster care program.
In 1995, DCFS began an internal review of its accounting for revenue.
This review disclosed that bank account balances for children were
not being monitored. As a result, some childrens account balances
exceeded the $2,000 resource limit under the title XVI program. Generally,
under title XVI, children with countable resources in excess of $2,000
are not entitled to benefits. In addition, DCFS determined that SSA
had not always been informed when children were no longer in the
County foster care program. When children leave the care and control
of the program, the County is no longer providing for the living
expenses of the children. Thus, Social Security benefits paid for
the care of these children improperly accumulated in the Countys
bank accounts. SSA is unaware of when children leave the Countys
program until either DCFS reports the information or a new representative
payee requests to receive the childrens benefits. DCFS voluntarily
returned over $1 million to SSA representing childrens conserved
funds in excess of the $2,000 title XVI resource limit and benefits
received for children who were not in the Countys care.
Back to top
SCOPE
We conducted our review in accordance with generally accepted government
auditing standards. Our objective was to address concerns about DCFS performance
as the representative payee for children in the County foster care
program who receive title II and title XVI benefits. We focused on
assessing the changes DCFS made in its operations to prevent problems
in reporting events to SSA and determining if DCFS received adequate
instructions from SSA. We also addressed a DCFS policy to use title
XVI funds to reimburse foster care parents at increased foster care
rates for children in their care who were receiving benefits.
We interviewed DCFS staff and SSA employees. We also reviewed DCFS
procedures for its new Eligibility Hotline (Hotline) and SSI units.
Our audit was conducted in San Francisco and Los Angeles, California.
We performed our field work from May through October 1996.
Back to top
RESULTS OF
REVIEW
The changes made by DCFS in its operations allow SSA to rely on
DCFS as a representative payee for children in the County foster
care program receiving Social Security benefits. DCFS has established
a Hotline and a SSI unit to monitor children receiving Social Security
benefits and report timely to SSA events that may affect the childrens
benefits. These changes should substantially eliminate the types
of problems previously identified. We have initiated another review
to determine if DCFS has identified events that should have been
reported to SSA. This review will focus on events which occurred
prior to November 1996.
Although SSAs instructions to DCFS were adequate, they were
not always timely. SSAs written procedures did not address
technical issues raised by DCFS. As a result, there were delays in
responding to DCFS questions. We also identified a policy issue which
SSA should address. The issue is whether a county should be able
to increase its foster care rates for children who receive title
XVI benefits based on their title XVI eligibility rather than use
the established procedures used for other children in foster care.
DCFS Operational and Procedural Changes to Improve Reporting
to SSA
The primary changes made by DCFS to improve its reporting of events
to SSA was the establishment of a Hotline and an SSI Unit. The Hotline
was established to provide a central location for foster care parents
and DCFS social workers and eligibility workers to report events
affecting children. For example, when a child runs away from a home
or is no longer in the Countys custody, these events are to
be reported to the Hotline. The Hotline staff is responsible for
resolving the issues that arise from telephone calls and forwarding
actions to the SSI unit for children receiving Social Security benefits.
The SSI unit is responsible for reviewing the information received
from the Hotline and reporting to SSA, in a timely manner, events
that may affect childrens eligibility. In addition, DCFS has
assigned the SSI unit the responsibility of monitoring childrens
conserved funds to ensure that resources do not exceed the title
XVI limit of $2,000. These operational and procedural changes allow
DCFS to report events which affect childrens benefits in a
timely manner and prevent the deficiencies previously identified
from recurring in the future.
Communication Between SSA and DCFS
Generally, SSAs instructions to DCFS were adequate, although
not always timely. The lack of SSA written procedures to address
technically complex problems presented by DCFS and the need for policy
guidance from SSA Headquarters caused delays. We believe that SSAs
instructions generally were written to address the concerns of private
payees providing custody for an individual or small groups of beneficiaries,
not public agencies acting as intermediaries for large numbers of
children receiving various forms of assistance, such as Medicaid
and Aid to Families with Dependent Children. For example, on February
26, 1996, DCFS officials asked the Pasadena District Office for approval
to retroactively increase the foster care rates for 127 children.
SSA employees had no procedural guidelines as a basis for a decision
about the allowability of using conserved title XVI funds to provide
retroactive reimbursement. On March 19, 1996, DCFS requested
guidance in writing and sent it to SSA Headquarters. SSA did not
provide an official response until September 11, 1996.
Use of Title XVI Funds for Pay Increases to Foster Care Rates
During July 1996, DCFS retroactively increased the foster care rates
of some title XVI children. DCFS also made a policy decision to administratively
increase current foster care rates of children awarded title XVI
benefits. The effect of DCFS policies was to establish foster
care rates for children receiving title XVI benefits solely on the
basis of their title XVI eligibility.
We informed DCFS officials that the Office of the Inspector General
would take exception to any policy which increased the foster care
rates based only on the childrens title XVI eligibility. The
DCFS procedures must comply with State law which requires the assessment
of each childs needs as a basis for establishing the foster
care rate to be paid to a foster care parent. This assessment is
based primarily on a social workers opinion and medical professionals evaluations
as to a childs level of care needed. Therefore, establishing
foster care rates based on the fact that children are receiving title
XVI benefits without actually assessing the needs of each child is
not in accordance with the Countys foster care program nor
the spirit of the foster care or title XVI programs. The Counsel
to the Inspector General has reviewed this issue and concurred with
our position.
In August 1996, a DCFS official told us DCFS reversed the policies
and that the foster care rates for children receiving title XVI benefits
will be determined based on the criteria used for all children entering
the Countys foster care program. As a result, the rates should
be reduced and DCFS will have to continue to conserve about $150,000
per year in excess funds for childrens future needs. This is
based on foster care rate changes to about 34 children. These are
children whose foster care rates had been increased based on the
prior policy.
Back to top
CONCLUSIONS
AND RECOMMENDATION
DCFS has made operational and procedural changes which allow SSA
to rely on the County as the representative payee for children in
its foster care program. We are recommending that SSA issue nationwide
guidance to limit title XVI spending on behalf of children receiving
foster care to the foster care rates established by State or local
governments for other children in foster care.
SSA COMMENTS
SSA stated that they will proceed in developing appropriate procedures
for representative payee agencies nationwide after receiving the
two remaining reports related to the Countys performance as
payee for children in foster care.
David C. Williams
Back to top
Appendix
B
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
William Fernandez, Director of Program Audits
Jimmie Harris, Team Leader
James Sippel, Senior Auditor
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified